BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief for Petitioner and
Joint Appendix in 20-601, Daniel Cameron, Attorney
General, on behalf of the Commonwealth of Kentucky v.
EMW Women's Surgical Center, P.S.C., on behalf of
itself, its staff, and its patients, et al., were sent via
Next Day Service to the U.S. Supreme Court, and 3
copies via Next Day and e-mail service to the following
parties listed below, this 14th day of June, 2021:
Andrew D. Beck
American Civil Liberties Union Foundation
125 Broad Street, 18th Floor
New York, NY 10004
(212) 519-7845
abeck@aclu.org

Counsel for Respondents EMW Women's
Surgical Center, P.S.C.; Ashlee Bergin;
Tanya Franklin
Wesley W. Duke
Kentucky Cabinet for Health & Family Services
Office of Legal Services
275 East Main Street
Room 5W-A
Frankfort, Kentucky 40621
(502) 564-7042
WesleyW.Duke@ky.gov

Counsel for Respondent Kentucky Cabinet for
Health & Family Services

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

I

www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

' Suite l 02

Cincinnati, Ohio 45249

1300 I Street, NW, Suite 400E

I

Washington, DC 20005

Matthew F. Kuhn
Counsel of Record
Principal Deputy Solicitor General
Office of the Kentucky Attorney General
700 Capital Avenue, Suite 118
Frankfort, KY 40601
(502) 696-5300
Matt.Kuhn@ky.gov

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 14, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

G(tv /2=1

NdPullic~

[seal]

